           Smithsonian Institution 	                                                  Memo

           Office of the Inspector General




  Date     January 8, 2013

    To 	   Albert Horvath, Under Secretary for Finance and Administration/Chief
            Financial Officer
           Richard Kurin, Under Secretary for History, Art and Culture
           Eva Pell, Under Secretary for Science
           Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary
            Support

     cc 	 Sudeep Anand, Treasurer
           Nancy Bechtol, Director, Office of Facilities, Engineering and Operations
           William Lynch, Director, Office of Protection Services
           William Tompkins, Director, National Collections Program

                                                                 ~
  From     Michael Sinko, Assistant Inspector General for Audits

Subject    Audit of Security of Transporting High Value Objects, Number A-13-0S

           We are initiating this audit as part of our Fiscal Year 2013 Audit Plan.
           The overall objective will be to determine what processes are used by
           units in establishing security protocols and standards for transporting
           high value and high risk collection objects and what level of
           coordination exists within the Smithsonian for these transports.

           We plan to hold preliminary meetings with your staff in order to obtain
           background information. Following these meetings, we will contact you
           to schedule an entrance conference to explain the objective, scope, and
           methodology of the review. Joan Mockeridge will be the Supervisory
           Auditor and Teena Propst will be the Auditor-in-Charge for this
           assignment.

           Please contact me or Joan Mockeridge at 202.633.70S0 if you have any
           questions or comments. Thank you for your anticipated cooperation.




           MRC524
           PO Box 37012
           Washington DC 20013-0712
           202.633.7050 Telephone
           202.633-7079 Fax
